No.

CERTIFICATE OF COMPLIANCE

ERNEST HEMSCHOT,
Petitioner
v.

FLORIDA DEPARTMENT OF AGRICULTURE AND
CONSUMER SERVICES, DIVISION OF LICENSING,
Respondent

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains approximately 3935 words, excluding the parts of the petition that
are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 8, 2020.

Ernest Hemschot III, Petitioner

